______________________________

MEMORANDUM

                                                                     September 18, 2000
To:    Jayne Seidman
From: Walter Stachnik
Re:    Additional Security Camera (OIG-311)
During the course of a recent investigation at the Commission’s Judiciary Plaza (JP) building
(OIG-311), we identified a need for an additional security camera.
In our investigation, we learned that a significant amount of computer equipment that is not
currently in use, most of which is waiting to be turned in for surplus, is being maintained in a
locked storage cage on the 3C level of the JP building. Recently, two Commission-owned
personal computers that had been brought down to the storage cage were reported missing.
While there are currently 39 security cameras at the JP building, there is no security camera
located in the vicinity of the storage cage.
       Recommendation A
       The Office of Administrative and Personnel Management should monitor activity in and
       out of the storage cage on the 3C level of the JP building by installing a security camera
       there.
cc: Harry Fleming
Denise Green
Estee Levine
Jim McConnell
Darlene Pryor
